HHS/OIG, Audit -"Review of Costs Claimed By Dartmouth College for NIH Grant No. 5 P01 GM51630-06,
May 1, 1998 - December 31, 2002,"(A-01-04-01506)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed By Dartmouth College for NIH Grant No. 5 P01 GM51630-06, May 1, 1998 - December
31, 2002," (A-01-04-01506)
September 29, 2005
Complete
Text of Report is available in PDF format (1.6 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether costs claimed by Dartmouth College (the College) for a selected
grant from the National Institutes of Health (NIH) were allowable under the terms of the grant and
applicable Federal regulations.  The College overcharged the NIH grant by $37,780 for the principal
investigators salary ($18,209 in salary and $19,571 in related fringe and indirect costs) for effort
not related to the NIH grant.  In addition, the College has internal control weaknesses related
to accounting for grant application activity, implementing changes in the payroll distribution system,
and monitoring recipients of subgrants.  We recommended that the College refund $37,780 to NIH
and take specific steps to strengthen its internal controls. Except for agreeing to refund $1,512 related
to an overstated labor distribution percentage, the College generally disagreed with our recommendations.